SUPREME COURT OF THE UNITED STATES

William D. Bush,
Petitioner,
VS.

Supreme Court, U.S.
FILED

State of California,

JUN 2 9 2020

Respondent.

OFFICE OF THE CLERK

On Petition for a Writ of Certiorari to
the United States Court of Appeals
Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

William David Bush
Constitutional Class Advocate
Citizenry of USA,
Resident of California.
Address: 240 West St. Sebastopol,
California, 95472 U.S.A.
E-mail: williamdbush @ gmail.com

AUG ' 2 2020

Question Presented

Where the State of California’s Health and Safety Code, openly declares supremacy in
codified authority to the articles and rights guaranteed in law by the Constitution of the United
States of America; Under what circumstances does Article X not apply, giving any State, county,
or city official the authority upon the citizenry, under threat of imprisonment and criminality, to
force peoples compliance with “any order” which may be in contradiction to the freedom and
liberty guaranteed by the U.S. Bill of Rights?

Petition for Writ of Certiorari

William Bush, A citizen of the United States of America, and a resident of the State of
California, respectfully petitions this court for a writ of certiorari to review the judicial
recommendation & order therefrom of the District Court for Northern California.

Upon the opinion

The decision by the District Court to adopt an objected too recommendation by a non consented
Magistrate Judge citing that the the Petitioners Complaint fails to state a claim and must be
dismissed, before the Defendant parties had been served the lawsuit summons is the basis for the
Petitioners request herein. That order, from District Judge Richard Seeborg, as well as the
Magistrate Judge Candis Westmore’s recommendation are attached.

Jurisdiction

The petitioner filed a proper notice of appeal with the Court following the District Courts
Order, dated May 28th 2020. The Petitioner invokes this courts jurisdiction under U.S.C.
1254(1), being that the petitioner has timely noticed an appeal upon the District Courts final
Judgement and Order.
Constitutional Provisions Involved
United States Constitution, Article X:
“The powers not delegated to the United States by the Constitution, nor prohibited by it to
the States, are reserved to the States respectively, or to the people.”
Statement of the Case
As of 12:01 a.m. on Friday, April 17,2020: The County of Sonoma County Health Department
imposition of California Health and Safety Code § 120275, et seq; the Petitioners request for
relief and injunction citing the State law codes in this case are in clear literary conflict with
Article X of the U.S. Constitution; the States Health and Safety Code statute stipulating any
person “upon the demand of any health officer, refuses or neglects to conform to, any rule, order,
or regulation prescribed by the department respecting a quarantine or disinfection of persons,
animals, things, or places, is guilty of a misdemeanor.” The Petitioner invokes his Tenth
Ammendement rights against such state law code, being that it is beyond the authority of any
State to impose and require submission by the citizenry to ‘any rule, order, or regulation’ as
proclaimed within the Bill of Rights, and thus the Liberties guaranteed by the US Constitution­
citing again the Tenth Amendment of the U.S. Constitution - “The powers not delegated to the
United States by the Constitution, nor prohibited by it to the States, are reserved to the States
respectively, or to the people.” This State Health and Safety Code is invalid as written and
codified, in that it grants unlimitied powers over the citizenry to any health officer during a
disputed total quarantine of all persons who are not infected with the disease in question.
Frankly, this law code section is completely invalid as written, should be over ruled, and the
orders based upon its misplaced authority, nullified by the higher authority of this Court. As of

12:01 a.m. on Thursday, June 18th 2020, the State Governor, Gavin Newsom, has ordered the
entire State to now comply with The Health and Safety Code Orders- requiring all private
businesses to enforce the Health and Safety Code orders, under threat of the health department
revoking their business license, and forcing private business owners to close their business
operations.
Conclusion
For the foregoing and obvious overreaching reasons, the Petitioner requests that this Court issue
a writ of certiorari and to review the proceedural actions, and dismissal of the lower Court; and
furthermore the Petitioner requests this Court to issue an opinion on the matter regarding the
application of State “safety” law codes, or other likewise statutory law codes, under
unprescedented circumstances, as what should be applicable to the Constitutional rights of the
citizenry, of which have, and can further be utilized by unelected, and potentially unqualified
employees of the State to dictate their disputed methods and regulations in violation of the U.S.
Constitution. The Petitioner asserts these powers can be further weilded to undermine the
freedoms and liberties of the United States of America, guaranteed by the founding Bill of
Rights, if left unchecked and improperly administrated.

DATED this 21st day of June, 2020
Inspectfully submitted,

William David Bush
Constitutional Class AdvocateCitizenry of USA,
Resident of California.

